NO. 20-

IN THE

SUPREME COURT
OF THE UNITED STATES
MICHAEL TORRES,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondents

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND
PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
HEIDI R. FREESE, ESQ.
Federal Public Defender
Middle District of Pennsylvania

FREDERICK W. ULRICH, ESQ.
Assistant Federal Public defender
Tammy L. Taylor, Esq.
Staff Attorney
Middle District of Pennsylvania
100 Chestnut Street, Suite 306
Harrisburg, Pennsylvania 17101
(717) 782-2237
fritz_ulrich@fd.org
Counsel for Petitioner

October 28, 2020

I, Frederick W. Ulrich, Esquire, a member of the Bar of this Court, hereby
certify that on this 27th day of August, 2019, copies of the Motion for Leave to
Proceed in Forma Pauperis and the Petition for a Writ of Certiorari in the abovecaptioned case were hand delivered and/or mailed, first-class postage prepaid, to
the following:
NOEL FRANCISCO, ESQUIRE
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue
Washington, DC 20530

PATRICIA S. DODSZUWEIT, CLERK
United States Court of Appeals
for the Third Circuit
601 Market Street, Room 21400
Philadelphia, PA 19106

CARLO D. MARCHIOLI, ESQUIRE
United States Attorney’s Office
228 Walnut Street, Room 220
Harrisburg, PA 17101
carlo.d.marchioli@usdoj.go
I further certify that I am a member of the Bar of this Court and that all
parties required to be served have been served.

Respectfully submitted,
/s/ Frederick W. Ulrich
FREDERICK W. ULRICH
Asst. Federal Public Defender
100 Chestnut Street, Suite 306
Harrisburg, PA 17101
(717) 782-2237
Attorney ID# PA44855
Counsel for Petitioner,
Michael Torres
Date: October 28, 2020

